                                         REPORT ON
                                FY 2006 FISMA AUDIT OF THE
                                 SMITHSONIAN INSTITUTION’S
                              INFORMATION SECURITY PROGRAM




Cotton & Company LLP
Auditors · Advisors
635 Slaters Lane, 4th Floor
Alexandria, Virginia 22314
703.836.6701
www.cottoncpa.com
                                        CONTENTS

Section                                                                               Page
Purpose                                                                                1

Background                                                                             1

Objectives, Scope, and Methodology                                                     2

Results:                                                                               3

    1. Major System Operated Without Going Through Formal Certification and            4
       Accreditation Process
    2. Standard Security Configuration Baselines Were Not Implemented                  4
    3. Incident Response Policies and Procedures Lack a Training Requirement           5
    4. Security Awareness Training Procedures Were Not Being Followed                  6
    5. Controls Were Not Adequate to Ensure Annual Self Assessments Were Accurate      7
       and Complete
    6. Standard Security Configuration Baselines Were Weak                              9
    7. Major System Security Plans Do Not Include Minimum Security Controls Section    10
    8. Some Major System Plan of Action and Milestone Schedules Were Missing           11
       Pertinent Data

    Status of Prior-Year Recommendations                                               12

    Summary of Management Response                                                     14

    Office of the Inspector General Comments                                           15

    Appendix A CIS Benchmark Comparison for Oracle 9i/10g                              17

    Appendix B CIS Benchmark Comparison for Windows 2003 Domain Controller             18

    Appendix C Full Text of Management Response                                        19
Smithsonian Institution OIG                                             FY2006 FISMA Review

                                        REPORT ON
                               FY 2006 FISMA AUDIT OF THE
                                SMITHSONIAN INSTITUTION’S
                             INFORMATION SECURITY PROGRAM


Cotton & Company LLP conducted an audit of the Smithsonian Institution’s (Institution) security
management program and practices in accordance with Title III of the 2002 E-Government Act,
also known as the Federal Information Security Management Act (FISMA).

PURPOSE

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the Federal
Information Security Management Act of 2002 was enacted to strengthen the security of federal
government information systems. Although the E-Government Act of 2002 does not apply to the
Institution, the Institution supports the information security practices required by the Act because
they are consistent with and advance the Institution’s mission and strategic goals.

FISMA outlines federal information security compliance criteria, including the requirement for an
annual independent assessment by the Institution’s Inspector General. This report presents the
results of the Smithsonian Institution’s Office of the Inspector General (OIG) annual evaluation
of the information security controls implemented by the Institution, based primarily on the work
performed by Cotton & Company LLP.

BACKGROUND

FISMA, Office of Management and Budget (OMB) regulations and National Institute of
Standards and Technology (NIST) guidance outline minimum security requirements for federal
information security programs. These include:

    •   Annual System Self-Assessments. NIST’s Security Self Assessment Guide for
        Information Technology Systems contains specific control objectives and techniques
        against which a system can be tested and measured. Performing a self-assessment and
        mitigating any of the weaknesses found in the assessment is an effective way to
        determine if the system or the information it contains is adequately secured and protected
        from loss, misuse, unauthorized access, or modification. OMB guidelines require
        organizations to use the NIST self-assessment tool annually to evaluate each of their
        major systems.

    •   Certification and Accreditation. NIST’s Guide for the Security Certification and
        Accreditation of Federal Information Systems states that systems should be certified and
        accredited. A certification is “a comprehensive assessment of management, operational
        and technical security controls in an information system, made in support of security
        accreditation, to determine the extent to which the controls are implemented correctly and
        operating as intended.” NIST guidance also discusses systems accreditation, which is
        “the official management decision given by a senior agency official to authorize
        operation of an information system and to explicitly accept the risk to operations, assets,
        or individuals based on the implementation of the agreed-upon set of security controls.”
        Organizations should use the results of the certification to reassess their risks and update
        system security plans to provide the basis for making security accreditation decisions.



                                                 1
Smithsonian Institution OIG                                            FY2006 FISMA Review

    •   System Security Plan. NIST’s Guide for Developing Security Plans for Federal
        Information Systems requires that all major application and general support systems be
        covered by a security plan. The plan provides an overview of the security requirements of
        a system and describes controls in place or planned for meeting those requirements.
        Additionally, the plan defines responsibilities and the expected behavior of all individuals
        accessing the system. The NIST guide also instructs that the security plan should describe
        the management, operational, and technical controls the organization has implemented to
        protect the system. Among other things, these controls include user identification and
        authentication procedures, contingency/disaster recovery planning, application software
        maintenance, data validation, and security awareness training.

OBJECTIVES, SCOPE, AND METHODOLOGY

On behalf of the OIG, Cotton & Company performed an independent audit of the Institution’s
information security management program. We conducted this audit in accordance with
Generally Accepted Government Auditing Standards, 2003 Revision, as amended, promulgated
by the Comptroller General of the United States. This report is intended to meet the objectives
described below and should not be used for other purposes.

The objectives were to evaluate and report on the effectiveness of the Institution’s information
security program and practices by:

    •   Reviewing existing system security plans, policies, and procedures for compliance with
        applicable laws and regulations.

    •   Determining if mission-critical systems and interfaces across the Institution have been
        identified in the system inventory.

    •   Identifying new systems or systems significantly modified during the year and
        determining if they were certified and accredited.

    •   Determining if system categorizations comply with guidance identified in Federal
        Information Processing Standard (FIPS) 199, Standards for Security Categorization of
        Federal Information and Information Systems.

    •   Reviewing major application and general support system self-assessments performed by
        system owners.

    •   Assessing the effectiveness of procedures for mitigating system deficiencies through the
        Plan of Action and Milestone (POA&M) process.

    •   Determining the completeness of disaster recovery plans, particularly for the Institution’s
        general support system (SInet).

    •   Completing the OIG FISMA template in accordance with Section C of the OMB’s
        Memorandum M-06-20, dated July 17, 2006.




                                                 2
Smithsonian Institution OIG                                            FY2006 FISMA Review

To accomplish these objectives, we evaluated the Institution’s security program, plans, policies,
and procedures in place as of August 31, 2006, for compliance with applicable federal laws and
regulations including specific guidance issued by OMB and NIST. Our audit included a high-
level review of each of the Institution’s 18 major systems and more detailed steps to evaluate the
Institution’s policies, procedures, and practices for:

    •   Certification and accreditation,
    •   POA&M,
    •   Security awareness training,
    •   Technical security training, and
    •   Incident response.

Additionally, we evaluated management actions completed through August 31, 2006, to address
recommendations contained in the OIG’s FY 2005 FISMA evaluation, Report No. M-05-03,
issued February 16, 2006.

Our audit was based on detailed interviews with Office of the Chief Information Officer (OCIO)
personnel and major system owners or sponsors. We reviewed policies, procedures, and practices
for compliance with NIST and OMB guidance and, where possible, tested the Institution’s
policies, procedures, and controls for effectiveness.

RESULTS

Our audit of the Institution’s security management program and practices determined that while
progress has been made in complying with requirements identified by FISMA, significant work is
still necessary to ensure adequate controls are in place and operating effectively. The Institution
made notable progress in addressing prior year weaknesses. Of the 9 recommendations in the
OIG’s FY2005 FISMA evaluation report, 7 were closed in FY2006 and 1 in December 2006.
Specific areas where the Institution made progress include:

    •   Updating the Institution’s system inventory to include system interfaces,
    •   Developing and testing disaster recovery plans,
    •   Establishing an interconnection agreement with the Smithsonian Astrophysical
        Observatory (SAO),
    •   Including completed items on the POA&Ms for one year after the completion date,
    •   Updating security plans based on changes to security configuration checklists, major
        system and operating environment changes, and the results of annual self-assessments,
    •   Completing self-assessments by mid-August 2006, and
    •   Certifying and accrediting systems affected by moving the data center to Herndon.

The one remaining recommendation concerning specialized IT security training has not been
closed. Currently, project managers are the only personnel with completed plans. Training plans
are being developed for network staff, IT project managers, and security staff. In addition, the
Office of Human Resources (OHR) has developed a database that contains fields for recording
course titles, hours, and completion dates; however, there is no implemented process or
requirement for users to report training to OHR or OCIO for more formal tracking.

In addition, we noted that OCIO has thoroughly developed and documented IT policies and
procedures. However, due to the Institution’s decentralized IT environment, the implementation
and enforcement of these policies and procedures has been limited or inconsistent. Without the
centralization of IT operations and the assignment of responsibility within OCIO for ensuring
Institution policy and procedures are being followed, management cannot ensure adequate

                                                 3
Smithsonian Institution OIG                                            FY2006 FISMA Review

controls are in place. More control and oversight of IT operations should reside with OCIO, with
the sole exception of the OIG, which must remain independent.

The following is a more detailed discussion of the weaknesses we found in our FY 2006 FISMA
audit as well as 12 recommendations for strengthening management controls over the Institution’s
information security program. We present our findings in the order of greatest risk to the system.

Major System Operated Without Going Through Formal Certification and
Accreditation Process

Controls were not adequate to ensure that all the Institution’s major applications have gone
through a timely, formal certification and accreditation (C&A) process and received authorization
for processing before being placed in production. Although OCIO has made significant progress
in certifying and accrediting their major applications, we determined the C-Cure badging system
(badging system) currently in production had not received official certification and accreditation
to operate as of August 31, 2006. OCIO identified the badging system as a major application in
the beginning of FY 2006 and stated that they were in the process of certifying and accrediting
the system. We followed up with OCIO and determined the badging system received interim
approval to operate on October 30, 2006 and full accreditation on November 16, 2006 after
remediation of identified weaknesses.

OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
B. Descriptive Information; b. Controls for Major Applications, (4) Authorize Processing, states:

        …The application must be authorized prior to operating and re-authorized at least
        every three years thereafter. Management authorization implies accepting the risk
        of each system used by the application.

The C&A process is intended to identify and mitigate system weaknesses to an acceptable level
before placing it into production. Without going through the C&A process, individuals
responsible for managing the badging system could not reasonably ensure that it and related data
were not subject to unacceptable levels of risk.

Recommendation

  1.    We recommend that the CIO develop and put in place Institution-wide controls to ensure
        that major applications are not placed into production before going through a formal
        certification and accreditation process and receiving formal authorization to operate.

Standard Security Configuration Baselines Were Not Implemented

Controls are not adequate to ensure standard security configuration baselines have been
implemented on major applications in accordance with Institution policy. Specifically, IT-960-
TN16, Baseline & Configuration Management of Application, Database, and Web Servers
section I., states:

        System owners must use established OCIO baseline build documents and obtain
        the appropriate approvals prior to installing or updating the operating system for
        application, database, and web servers to be placed on SInet.

Standard security configuration baselines (baseline build documents) document the recommended
security settings which should be implemented on a platform such as Oracle or Windows. OCIO


                                                 4
Smithsonian Institution OIG                                            FY2006 FISMA Review

developed and documented their standard security configuration baselines for system sponsors to
implement; however, we determined these baselines have not been implemented for all major
systems.

For example, our audit of the Development and Membership Information System (DMIS) major
application noted that baselines for the Oracle database and Windows operating system have not
been implemented. Management has identified this weakness in the DMIS POA&M; however
target dates for implementing baselines are not until sometime in 2007.

In addition, our audit of the Institution’s SInet Windows Domain Controller noted that the
Institution’s Windows 2003 baseline has not been implemented on the domain controller even
though OCIO is responsible for implementing and maintaining this server. IT-960-TN16, states:

        Any network or application server attaching to SInet will comply with the
        approved baseline configuration specified in this technical note… Deviations
        from the approved configurations will require a waiver from the Chief
        Information Officer.

IT-960-TN16 I., Section 3 Responsibilities I. System Owners, states:

        System owners must use established OCIO baseline build documents and obtain
        the appropriate approvals prior to installing or updating the operating system for
        application, database, and web servers to be placed on SInet… Formally review
        their server configuration files twice a year; or when there are major changes
        requiring an update to this technical note (including its appendices) and
        individual system configuration documents.

Without adequate controls in place to ensure that configuration baselines are developed and put in
place over the Institution’s major information systems, the confidentiality, availability, or
integrity of Institution systems and related data may be at greater risk than management is willing
to accept.

Recommendation

  2.    We recommend that the CIO establish procedures to ensure existing policies requiring the
        use of standard baselines are implemented and enforced.

Incident Response Policies and Procedures Lack a Training Requirement

Controls were inadequate to ensure that personnel with significant incident response roles and
responsibilities understood and were capable of carrying out the Institution’s incident response
policies and procedures. Specifically, we noted that none of the key incident response personnel
within OCIO had received training on the Institution’s documented incident response policy and
procedures. Additionally, we noted that the Institution’s incident response policy does not
specifically require incident response training or annual refresher training for key personnel.

NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
Technology Systems, Section 3.7.2, Characteristics, Educated Constituency, states:

        Users need to know about, accept, and trust the incident handling capability or it
        will not be used. Through training and awareness programs, users can become



                                                 5
Smithsonian Institution OIG                                             FY2006 FISMA Review

        knowledgeable about the existence of the capability and how to recognize and
        report incidents.

In addition, NIST SP 800-53, Recommended Security Controls for Federal
Information Systems, IR-2, Incident Response Training, states:

        The organization trains personnel in their incident response roles and
        responsibilities with respect to the information system and provides refresher
        training at least annually.

Without periodic incident response training for key personnel, management cannot ensure that
incidents will be handled according to the Institution’s policy and not result in greater damage to
the Institution’s systems than would have occurred if personnel had been appropriately trained.

Recommendation

  3.    We recommend that the CIO conduct incident response training for individuals with
        significant incident response roles and conduct periodic refresher training at least
        annually.

Security Awareness Training Procedures Were Not Being Followed

Controls were not adequate to ensure employees completed security awareness training in
accordance with Institution policy IT-930-02, Security Controls Manual section 3.2.2.1 On-line
training, which states:

        All employees, volunteers, interns, visiting scholars, and contractor personnel
        who use the Institution’s computers and networks must complete computer
        security awareness training annually. Directors of each museum, research center,
        or office will ensure that new employees, volunteers, interns, visiting scholars
        and contractor personnel complete the course within 30 days after beginning
        work and that each user completes the online computer security awareness
        tutorial annually.

We identified 13 new network users who were granted network access between July 9 and 20,
2006. Of the 13, four did not complete online awareness training within the required 30-day
period. In addition, we randomly selected 45 individuals after September 30th to determine
whether they had completed annual security awareness training. Of the 45 individuals selected,
we identified 3 who had not completed annual security awareness training.

Responsibility for ensuring that Institution personnel attend security awareness training is
assigned at the unit, museum, research center, or office director level. Although OCIO reviews
attendance at the end of the year to ensure individuals have completed training and sends
reminders to each unit reminding them to take training, we noted that responsibility for ensuring
new employees complete training within the required 30-day period has not been assigned to an
individual within OCIO.

Additionally, we determined OCIO has not specifically defined consequences for non-compliance
with the Institution’s security awareness training policy. OCIO has withheld computer hardware
purchase authority from units in the past; however, this type of penalty is not defined in their
policy.



                                                 6
Smithsonian Institution OIG                                              FY2006 FISMA Review

OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources, states
that agencies must “…ensure that all individuals are trained in how to fulfill their security
responsibilities before allowing them access to the system.” In addition, NIST Special Publication
(SP) 800-50, Building an Information Security Awareness and Training Program states:

        Federal agencies and organizations cannot protect the confidentiality, integrity,
        and availability of information in today’s highly networked systems environment
        without ensuring that all people involved in using and managing IT:

        •       Understand their roles and responsibilities related to the organization’s mission;
        •       Understand the organization’s IT security policy, procedures, and practices; and
        •       Have at least adequate knowledge of the various management, operational, and
                technical controls required and available to protect the IT resources for which
                they are responsible.

Further, NIST SP 800-50 states:

        As cited in audit reports, periodicals, and conference presentations, it is generally
        understood by the IT security professional community that people are one of the
        weakest links in attempts to secure systems and networks. The “people-factor”
        not technology is key to providing an adequate and appropriate level of security.
        … A robust and enterprise wide awareness and training program is paramount to
        ensuring that people understand their IT security responsibilities, organizational
        policies, and how to properly use and protect the IT resources entrusted to them.

Security awareness training is the primary vehicle for communicating the agency’s security
policies, procedures, practices, and the expected behaviors of employees and contractors. Without
effective security awareness training, management’s ability to communicate the agency’s security
policies and procedures is minimized, and the risk of unauthorized activities taking place by
employees or contractors can increase.

Recommendations

We recommend that the CIO:

  4.    Develop, document, and implement procedures to enforce Institution policy requiring
        individuals to complete security awareness training within 30 days of being granted a
        SInet account and annually thereafter.

  5.    Identify, document, and enforce consequences of noncompliance (such as revoking
        access to SInet until training is completed) with the Institution’s security awareness
        training policy.

Controls Were Not Adequate to Ensure Annual Self-Assessments Were Accurate and
Complete

Controls were not adequate to ensure that annual self-assessments were accurate, complete and in
accordance with Institution policy for all major Institution systems. Specifically, we determined
that a self-assessment was not completed for the Institution’s badging system, which was




                                                  7
Smithsonian Institution OIG                                            FY2006 FISMA Review

identified as a major application in early 2006. OCIO stated they (OCIO in conjunction with the
system sponsor) were in the process of completing the initial certification and accreditation for
the system and were therefore not requiring a self-assessment be completed by the system
sponsor. As of August 2006, OCIO’s certification and accreditation effort had not been
completed. Further, our review of completed self assessments noted that none of the system
sponsors produced or retained supporting documentation during their assessments.

IT-930-01, AIS Security Planning, Section 6.2, Periodic Re-Analysis of AIS Security, states
“…Each system sponsor is required to annually complete a Self Certification review using NIST
SP 800-26… The Computer Security Manager will review the Self Certification by July 30th.”

NIST SP 800-26 section 3. Questionnaire Structure states:

        After each question, there is a comment field and an initial field. The comment field
        can be used to note the reference to supporting documentation that is attached to the
        questionnaire or is obtainable for that question... Additionally, the section may
        reference supporting documentation on how the control objectives and techniques
        were tested and a summary of findings.

Additionally, our testing identified specific instances where responses documented on self-
assessments were inaccurate. We noted the following issues:

•   SInet 800-26, Section 4.1.3, indicated that rules of behavior have been established and signed
    by users and integrated within the system. We selected a random sample of 45 users to
    determine whether they had signed rules of behavior. Of the 45, management could only
    provide us with 5 signed copies. (See companion SInet Audit Report, Number A-06-07)

•   SInet 800-26, Section 6.1.8, identified a process for requesting, establishing, issuing, and
    closing user accounts and noted that the self-assessment response indicated the control has
    been tested and integrated into the system. However, we selected a random sample of 45
    SInet user accounts to test and identified the following:

       Network accounts are not being promptly disabled or deleted after a period of inactivity.
        Out of 12,053 SInet active accounts, 3,359 (28%) have not been used in more than 180
        days.
       Network accounts are not being promptly deleted when users leave the Institution. We
        selected a random sample of 45 individuals who had recently resigned and noted that 16
        of the 45 individuals were still identified as active on the network. (See Audit Report
        Number A-06-07)

•   SInet 800-26, Section 15.1.6, indicated that passwords were changed at least every 90 days or
    earlier, and this control was tested and integrated into the system. In our SInet report (see
    Audit Report Number A-06-07), we noted that passwords were not being consistently
    changed within 90 days.

•   Visitor Count Management System (VCMS) Section 6.1.8 indicates that procedures have
    been developed, implemented, tested, and integrated; however our review of the VCMS
    POA&M noted this control was also reported as a weakness.




                                                 8
Smithsonian Institution OIG                                              FY2006 FISMA Review

We were informed during our audit that although OCIO offered a 2-day course (not mandatory)
on completing the NIST SP 800-26 self-assessments, system sponsors did not attend this training.
In addition, because self-assessments were not provided to OCIO until early in August, OCIO did
not sufficiently review the assessments before providing them to the auditor.

Without adequate knowledge or guidance on how to accurately complete annual self-assessments,
management cannot be sure that self-assessments are effectively providing assurance that new
risks have not been introduced into the production environment that it would be unwilling to
accept if identified.

Recommendations

We recommend that the CIO:

  6.    Comply with Institution policy by reviewing annual self-assessments to ensure they are
        completed accurately and require system sponsors to produce and retain adequate
        documentation to support conclusions made.

  7.    Require system owners to attend training provided by OCIO on completing self
         assessments.

Standard Security Configuration Baselines Were Weak

Although OCIO went through a detailed process to develop and document their standard security
configuration baselines, we noted these baselines did not address many security configuration
settings identified in industry-accepted security configuration baselines. OMB Memorandum
M-06-20, FY2006 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, Section 18, identifies what are minimally acceptable system
configuration requirements and where they may be located:

        Security configuration checklists are now available for computer software widely
        used within the Federal Government. The checklists may be found on the NIST
        Computer Security Division website as well as the NSA System and Network
        Attack Center website. OMB expects agencies to use the published
        configurations or be prepared to justify why they are not doing so. Inspectors
        General should review such use.

Specifically, we compared the Institution’s Windows 2003 and Oracle baselines to the Center for
Internet Security’s (CIS) respective baselines and noted specific areas the Institution’s baselines
did not address. (See Appendixes A and B for comparisons)

Through discussions with OCIO we determined the Institution developed their own baselines and
removed configuration settings or controls which they determined did not need to be
implemented or were not applicable to Institution systems. Because baselines should show
management’s risk-based consideration for all controls applicable to a platform such as Windows
or Oracle, industry best practices are to include all security settings in a baseline and specifically
document on the baseline the reason why certain controls were not implemented.

Without a comprehensive baseline for system sponsors to use in securing their system,
management cannot be sure all necessary security settings have been adequately addressed or
implemented.



                                                  9
Smithsonian Institution OIG                                            FY2006 FISMA Review

Recommendations

We recommend that the CIO:

  8.    Consider adopting industry-accepted baselines, such as those offered by NIST, the
        National Security Agency (NSA), or CIS. If OCIO decides to use their own baselines, we
        recommend OCIO compare them to industry-accepted baselines and update them where
        necessary to ensure the Institution’s baselines address all known configuration options.

  9.    Update Institution policy and procedures to require system sponsors to document on
        implemented baselines those controls which management has chosen not to implement
        for valid business reasons.

Major System Security Plans Do Not Include Minimum Security Controls Section

Controls were inadequate to ensure that the Institution’s major system security plans included
information required by Institution, OMB, and NIST guidance. The Institution’s IT-930-01,
Section 2, Concept and Requirements Definition Phase, states:

        The Project Manager prepares the AIS Security Plan, which is the repository for
        all security-planning documents generated during the life cycle.

OCIO has a standard template documented in IT-930-01, Appendix B, for project managers to
use when developing system security plans. This security plan template includes 13 sections. We
noted two of the Institution’s system security plans [National Air and Space Museum (NASM)
and National Museum of American History Multi MIMSY Collection Information System
(MIMSY CIS)] did not include the minimum security controls section. Without inclusion of the
minimum security controls in the security plan, specific control areas required by OMB A-130,
Appendix III, were not addressed. The OMB A-130 controls not addressed included:

        •       Rules of Behavior
        •       Specialized Training
        •       Personal Security
        •       Incident Response Capability
        •       Contingency Planning
        •       Technical Security
        •       Public Access Controls

In addition, our review of the DMIS security plan noted that minimum security controls were
documented although these controls were not included in or referenced to in the system security
plan (see companion DMIS Audit Report Number A-06-08). NIST SP 800-18 Guide for
Developing Security Plans for Federal Information Systems section 1.4 states:

        The purpose of system security plans is to provide an overview of the security
        requirements of the system and describe the controls in place or planned for meeting
        those requirements.

Without inclusion of or reference to all documented controls in the system security plan, the risk
of security policies and procedures not being followed or in place and operating effectively
increases.




                                                10
Smithsonian Institution OIG                                              FY2006 FISMA Review

A lack of adequate controls in place to verify that security plans are being developed,
documented, and approved in accordance with Institution, OMB, and NIST policy also increases
the risk that controls over major systems have been inadequately identified and tested.

Recommendation

  10.   We recommend that the CIO require system sponsors to update system security plans for
        NASM and MIMSY CIS to comply with IT-930-01 guidance.

Some Major System Plan of Action and Milestone Schedules are Missing Pertinent Data

OMB Circular A-11 Part 7 states:

        As defined in OMB Memorandum 02-01, a plan of action and milestones (POA&M),
        also referred to as a corrective action plan, is a tool that identifies tasks that need to be
        accomplished. It details resources required to accomplish the elements of the plan, any
        milestones in meeting the task, and scheduled completion dates for the milestones. The
        purpose of the POA&M is to assist agencies in identifying, assessing, prioritizing, and
        monitoring the progress of corrective efforts for security weaknesses found in programs
        and systems.

The Institution has developed and implemented a POA&M process. POA&Ms are consistently
developed for each of the Institution’s major applications and sent to the CIO for inclusion in the
Institution-wide POA&M. However, our review of completed POA&Ms for major systems noted
that many are missing information required by IT-930-01, Automated Information System (AIS)
Security Planning Technical Standard & Guidelines and OMB Memorandum M-02-01, Guidance
for Preparing and Submitting Security Plans of Action and Milestones. Specifically, we noted the
following issues with the Institution’s major system POA&Ms:

• Financial Management System (FMS), Travel Management System (TMS), and Visitor
  Count Management System (VCMS) - Scheduled completion date for each milestone was not
  identified.

• SInet and Smithsonian Astrophysical Observatory Scientific Computing System (SAO) -
  Scheduled Completion Date states “TBD”, and there is no ‘Status’ column.

• Art Collection Information System (ARTCIS) – There is no column for “Status.”

Without adequate controls to ensure required information is included in the POA&M,
management’s ability to track and effectively mitigate known weaknesses in a timely manner is
diminished.

Recommendations

We recommend that the CIO:

  11.   Require system sponsors for the ARTCIS, SAO, VCMS, and SInet systems to update
        their POA&Ms to include all information required by IT-930-01.

  12.   Periodically review POA&Ms to ensure that they meet criteria identified in IT-930-01
        and OMB Memorandum M-02-01.



                                                  11
Smithsonian Institution OIG                                                                                           FY2006 FISMA Review

Status of Prior-Year Findings and Recommendations (FY 2005 FISMA evaluation, Report No. M-05-03)

                  Prior Year Finding                                    Recommendation                                         Status
 System Inventory Does Not Identify All of the      We recommend the CIO identify and include all system           Closed
 Institution’s Mission-Critical System Interfaces   interfaces, including those that transfer sensitive data, in
                                                    its major system inventory to comply with FISMA                3/23/2006
                                                    reporting requirements.
 Certification and Accreditation Process Needs      We recommend that the CIO require units to update              Closed
 Improvement - Security Plans for the 14 Major      system security plans based on changes to security
 Systems Were Not Updated                           configuration checklists, major system and operating           6/6/2006
                                                    environment changes, and the results of annual self-
                                                    assessments.
 Certification and Accreditation Process Needs      We recommend that the CIO develop a separate disaster          Closed
 Improvement – Systems are Operating without        recovery plan for the National Postal Museum’s
 Finalized Disaster Recovery Plans                  collection information system and finalize the draft           3/23/2006
                                                    disaster recovery plans for the six major applications
                                                    discussed in this report.
 Certification and Accreditation Process Needs      We recommend that the CIO work with Harvard                    Closed
 Improvement – SAO Operates on a Non-               University and SAO to establish an interconnection
 Smithsonian System Without an Interconnection      agreement between the Smithsonian and Harvard                  6/14/2006
 Agreement.                                         University for the SAO Scientific Computing System as
                                                    required by NIST’s “Security Guide for Interconnecting
                                                    Information Technology Systems”.
 Certification and Accreditation Process Needs      We recommend that the CIO ensure that the general              Closed
 Improvement – Significant System Changes           support system and affected major applications are
 Occurred with No Reaccreditation.                  reaccredited after the primary data center and general         9/29/2006
                                                    support system are relocated to Herndon, Virginia, and
                                                    establish a process for ensuring that all major systems
                                                    are reaccredited when significant changes occur in
                                                    systems and/or their operating environment, in
                                                    accordance with NIST guidance.




                                                                         12
Smithsonian Institution OIG                                                                                        FY2006 FISMA Review


Specialized IT Security Training Not Provided to   We recommend that the CIO require that employees             Open
All Employees with Significant Computer Security   who have significant computer responsibilities report
Responsibilities.                                  their plans for meeting the specialized training             Target 01/31/2007
                                                   requirements at the beginning of the fiscal year, and
                                                   monitor employee progress during the year to ensure          Training plans have not been
                                                   that training is completed.                                  created for all personnel.
                                                                                                                Currently, curriculums are
                                                                                                                being developed for network
                                                                                                                staff, IT project managers,
                                                                                                                and security staff. Project
                                                                                                                managers are the only
                                                                                                                personnel with completed
                                                                                                                plans.

Specialized IT Security Training Not Provided to   We recommend that the CIO ensure, either through             Closed
All Employees with Significant Computer Security   OCIO’s current tracking process or the Human
Responsibilities. (Continued)                      Resources Management System, that in FY 2006                 12/21/2006
                                                   individuals identify course titles, hours, and completion
                                                   dates of specialized IT training to provide assurance that
                                                   NIST training requirements are satisfied.
Improvements Needed to Facilitate the Annual       We recommend the CIO keep completed items in the             Closed
FISMA Evaluation Process – Completed Action        action plan for one year after they have been fully
Plan Items Need to be Retained for a Minimum of    mitigated.                                                   3/23/2006
One Year.
Improvements Needed to Facilitate the Annual       We recommend that the CIO ensure self-assessments are Closed
FISMA Evaluation Process – Self-Assessments.       completed and available no later than July 30, of each
                                                   year.                                                  9/29/2006




                                                                       13
Smithsonian Institution OIG                                            FY2006 FISMA Review

Summary of Management Response

Management’s March 27, 2007, response to our draft report generally concurred with 11 of our
12 recommendations to strengthen the effectiveness of the Institution’s information security
program and practices. OCIO agreed that work remains to be done but indicates that efforts to
further improve IT security are complicated by limited resources as well as changing OMB and
NIST guidance. OCIO stated that successful completion of some of the recommendations will
require resources not currently budgeted for in OCIO. Management disagreed with our
recommendation to ensure that major applications were certified and accredited before being
placed into production and receiving a formal authorization to operate because it maintains that it
already has adequate safeguards in place.

Management’s planned actions are summarized below:

Recommendation 1. Non-concur. OCIO believes that adequate controls are in place to ensure
that major applications are not placed into production before going through a certification and
accreditation (C&A) process. All Major Applications are required to participate in the Technical
Review Board (TRB) process and as part of this process C&A is required.

Recommendation 2. Concur. OCIO will draft procedures by September 30, 2007 to ensure
existing policies requiring the use of standard baselines are implemented and enforced.

Recommendation 3. Concur. OCIO indicates that this training was conducted on September 18,
2006, where key incident response staff were involved in running several incident response
scenarios.

Recommendation 4. Concur. OCIO will draft and implement procedures by July 31, 2007 to
enforce Institution policy requiring individuals to complete security awareness training within 30
days of being granted an SI network account.

Recommendation 5. Concur. OCIO will modify the Institution’s policy to include consequences
for noncompliance to the annual requirement for security awareness training by July 31, 2007.

Recommendation 6. Concur. By July 31, 2007, OCIO plans to rescind its policy requiring self-
assessments, which will no longer be required by NIST. Instead, NIST will require annual
assessments of selected controls in accordance with SP 800-53a, and OCIO has agreed to comply
with the NIST guidance.

Recommendation 7. Concur. OCIO has chosen to withdraw the requirement for annual self-
assessments under NIST SP 800-26. According to NIST guidance, SP 800-26 is to be replaced by
SP 800-53a, which will require annual assessments of selected controls. Therefore, OCIO
believes that training on completing self assessments would not be required.

Recommendation 8. Partial concurrence. OCIO agreed to review its baselines and compare them
to newer industry accepted baselines, identify deviations, and document the differences by
September 30, 2007. OCIO also agreed to review its baseline annually.

Recommendation 9. Concur. The CIO agreed to update Institution policy and procedures to
require that system sponsors document on baselines those controls that management chose not to
implement by July 31, 2007.




                                                14
Smithsonian Institution OIG                                              FY2006 FISMA Review

Recommendation 10. Concur. OCIO will update security plans during the 2007 recertification
and reaccreditation process to ensure that minimum security controls are in place in accordance
with the current version of IT 930-01.

Recommendation 11. Concur. OCIO stated that POA&M’s have been updated to include all
information required by IT-930-01.

Recommendation 12. Concur. OCIO stated that all POA&Ms have been updated to include
scheduled completion date and status. OCIO will ensure in periodic reviews, and no less than
annually, that the POA&Ms meet relevant criteria.

The full text of management’s response is included in Appendix C.

Office of the Inspector General Comments

Management’s planned actions for recommendations 2 through 5, and 8 through 12, respond to
the intent of our recommendations and we consider them resolved. Regarding planned actions for
recommendations 6 and 7 on self-assessments, we note that while NIST SP 800-26 will likely be
rescinded, there will be a replacement for it in SP 800-53a that requires annual assessments be
conducted on selected controls. Therefore, the CIO needs to ensure that the annual assessments
are accurate, complete, and properly supported as well as that individuals involved in conducting
assessments are properly trained. With the understanding and expectation that OCIO will fully
implement the anticipated guidance on annual assessments, we consider recommendations 6 and
7 resolved.

In evaluating management’s response to this report, we held several discussions with the IT
Security Director in an effort to clarify and resolve areas of disagreement. The only
recommendation we could not ultimately reach resolution on is recommendation 1 on ensuring
major applications are not placed into production before going through a formal C&A process.
We agree with OCIO that once a system is identified as “major,” the process of going through the
Technical Review Board and certifying and accrediting the system before production is a sound
one. However, the primary criterion for identifying systems as major was whether it was listed on
an OMB Exhibit 300. As a consequence, OCIO did not certify and accredit smaller, less
expensive, but in our view not necessarily less important systems such as Badging, VCMS, and
DMIS. Recently, because these systems have either been upgraded or the data was subsequently
recognized as sensitive they were re-categorized as major and OCIO has subjected them to the
certification and accreditation process.

We are concerned that the Institution relies on other IT systems that contain sensitive, mission-
critical data at the unit level but that have not been placed through the rigors of a certification and
accreditation process because these smaller system applications have not required expenditures
that would require them to be listed on an Exhibit 300. For example, there are systems at the
National Zoological Park such as the Animal Records Keeping System, Medical Animal Records
System, and the Single Population Animal Records Keeping System, that were never identified as
major systems, yet we believe the information contained in these systems is mission-critical to the
Zoo and the health and welfare of the animals. Also, the Office of Protection Services operates
the NACIS database application system, which is critical for documenting and tracking the status
of employee and contractor background investigations and suitability determinations. This
important system has known weaknesses and is difficult to support. In our view, the methodology
OCIO uses to identify major systems does not sufficiently consider risk or magnitude of harm
resulting from the loss, misuse, or unauthorized access to or modification of the information in



                                                  15
Smithsonian Institution OIG                                            FY2006 FISMA Review

these smaller IT applications. The new CIO has an opportunity to reexamine the inventory of the
Institution’s IT systems and determine whether other smaller applications should be placed
through a certification and accreditation process because they process sensitive data related to
security, personnel, safety, or health. We will continue to hold discussions with OCIO to work
toward a resolution on this issue.

We appreciate the courtesy and cooperation of Smithsonian representatives during this
evaluation. If you have any questions concerning this report, please call me, or Stuart Metzger at
(202) 633-7050.




                                                16
           Smithsonian Institution OIG                                                FY2006 FISMA Review


           Appendix A

           Appendix A documents our comparison of the Institution’s Oracle 9i/10g baseline to an industry-accepted
           Oracle baseline. Where the Institution’s baseline does not address controls in the industry-accepted
           baseline we noted a deficiency.

           Note – The controls columns identify how many controls each baseline addresses in each focus area.

CIS Benchmark for Oracle 9i/10g Ver 2.0              Smithsonian OCIO: Security Settings for Oracle Servers
#     Area of Focus                Controls          Deficiencies                                                 Controls
1     Operating System (OS)             20           Only covers a few settings at the OS level, missing the          3
      Settings                                       majority of OS controls or a reference to an OS baseline.
2     Installation and Patch            14           Only covers a few settings regarding installation and            4
                                                     patch management.
3     Oracle Directory and File             31       Does not cover OS level permissions in detail and does           0
      Permissions                                    not cover modifications to key files init.ora, listener.ora,
                                                     and sqlnet.ora.
4     Oracle Parameter Settings             31       Substantially not covered.                                       1
5     Encryption Settings                   24       Substantially not covered.                                       1
6     Startup and Shutdown                  3        Not covered.                                                     0
7     Backup and Recovery                    8       Generic statement concerning the creation of backup              3
                                                     procedures, nothing specific.
8     Oracle Profile – Setup Settings       14       Generic statement covering profile settings, specifics not       1
                                                     identified.
9     Oracle Profile – Access               59       Some permission restrictions are covered, but not to the        13
      Settings                                       extent in CIS.
10    Enterprise Manager                     6       Not covered.                                                     0
11    10g Specific Settings                  4       Not Applicable for DMIS                                          0
12    General Policy and Procedures         63       Some general database admin procedures covered.                 11
13    Audit Policy and Procedures           23       Not covered.                                                     0
14    Appendix A – Additional               14       Not covered.                                                     0
      Settings
                                           N/A       Other controls not specifically covered by CIS                   6




                                                              17
              Smithsonian Institution OIG                                                 FY2006 FISMA Review


              Appendix B

              Appendix B documents our comparison of the Institution’s Windows 2003 baseline to an industry-accepted
              Windows 2003 baseline. Where the Institution’s baseline does not address controls in the industry-accepted
              baseline we noted a deficiency.

              Note – The controls columns identify how many controls each baseline addresses in each focus area.

CIS Benchmark for Windows 2003 Domain                        Smithsonian OCIO: Security Settings for Windows 2003
Controller                                                   baseline
(Control totals reflect all listed settings, even the ones
where a setting is not specified. These will automatically
pass unless the target baseline implements an insecure
setting)
#      Area of Focus                         Controls        Deficiencies                                                  Controls
1      Service Packs and Hotfix                  2           No deficiencies, the document describes how to                    2
       Requirements                                          update the machine upon setup.
2      Audit Policy                               9          Auditing Object Access is not defined.                             8
3      Account Policy                              6         The minimum password age is set to 0 instead of 1.                 5
4      Account Lockout Policy                      3         No deficiencies.                                                   3
5      Event Log Settings                         12         No deficiencies.                                                  12
6      Security Settings                          87         Several of the security settings were not defined,                59
                                                             when they should have specific values defined.
7      Services                                   39         Several services were not defined, specifically,                  2
                                                             defining dangerous services to be disabled.
8      User Rights                                39         Several user rights were not specifically defined. One            21
                                                             of the defined user rights had inappropriate rights
                                                             given to the Users group for “Allow logon through
                                                             terminal services.”
9      File Permissions                           27         Not covered.                                                      0
10     Registry Permissions                       11         Not covered.                                                      0
11     File and Registry Auditing                  3         Not covered (cannot be done without Auditing Object               0
                                                             Access).




                                                                  18
Smithsonian Institution OIG           FY2006 FISMA Review

Appendix C Management Response




                                 19
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    20
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    21
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    22
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    23
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    24
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    25
Smithsonian Institution OIG                  FY2006 FISMA Review

Appendix C Management Response (continued)




                                    26
